              U.S. Department of Energy
              Office of Inspector General
              Office of Audits and Inspections




Audit Report
Lawrence Livermore National
Laboratory's Use of Time and
Materials Subcontracts




OAS-M-13-06                          August 2013
                                 Department of Energy
                                    Washington, DC 20585

                                        August 8, 2013


MEMORANDUM FOR THE MANAGER, LIVERMORE FIELD OFFICE




FROM:                    George W. Collard
                         Assistant Inspector General
                            for Audits
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Lawrence Livermore National
                         Laboratory's Use of Time and Materials Subcontracts"


BACKGROUND

The mission of Lawrence Livermore National Laboratory (Livermore) is to strengthen the United
States' security through development and application of science and technology to enhance the
Nation's defense, reduce the global threat from terrorism and weapons of mass destruction, and
respond to scientific issues of national importance. Livermore is operated by Lawrence
Livermore National Security, LLC, for the Department of Energy's (Department) National
Nuclear Security Administration (NNSA).

In accomplishing its mission, Livermore uses a variety of subcontracting types, including time
and materials subcontracts. As of January 1, 2010, the total contract value of Livermore's
subcontracts greater than $250,000 was approximately $1.7 billion, of which about $655 million
were time and materials subcontracts. Time and materials subcontracts are contracting
instruments based on direct labor hours at fixed hourly rates (comprised of wages, overhead,
general and administrative expenses, and profit) and actual costs for materials. According to the
Department's Acquisition Guide, one of the constraints associated with time and materials
subcontracts is that there is no profit incentive for subcontractors to control costs.

Given the inherent risk associated with time and materials subcontracts and the extent to which
these contracts are used at Livermore, we initiated this audit to determine if Livermore procured
services through time and materials subcontracts in the most effective and efficient manner.

RESULTS OF AUDIT

We found that Livermore had not always procured services through time and materials
subcontracts in the most effective and efficient manner. Our testing revealed that some sole
source 1 justifications were not fully supported as required by Federal regulations and internal
policies and procedures. Specifically, we found that Livermore had not fully justified sole
source selection for 6 of 7 subcontracts included in our judgmental sample of 12 time and
materials subcontracts. We also found that in two of the sole source subcontracts, Livermore did
not perform an adequate price analysis. As a consequence, we could not determine and
Livermore did not demonstrate that the decision to award these particular time and materials
subcontracts was in the best interest of NNSA.

                                               Sole Source Awards

Livermore awarded some time and materials subcontracts without fully justifying its sole source
selection of subcontractors. Specifically, our testing revealed that seven (58 percent) of the
actions we reviewed were awarded on a sole source basis. We noted that six of the sole source
awards were not adequately justified, including the subcontract rates established for some cases.
Livermore's procurement procedures for sole source awards require adequate justification, such
as market research, and a price analysis to ensure that services are obtained at fair and reasonable
prices. Livermore's contract also incorporates and requires compliance with certain Federal
regulations regarding the development and maintenance of written documentation to support that
purchasing transactions and prices paid are in the best interest of the Government. However, our
review of the documentation for these subcontracts revealed that six lacked adequate market
research and two of the six also lacked an adequate price analysis.

Livermore did not perform either market research or an adequate price analysis to support a
subcontract award with an estimated total cost of $2.7 million for a Chief of Staff position.
According to Livermore officials, they awarded the subcontract on a sole source basis because
they preferred the subcontractor's experience, gained through a sequence of prior Livermore
subcontracts and prior Department employment. Livermore also stated that there was no other
source for the Chief of Staff position. Livermore's sole source justification lacked market
research documenting that there were no other sources with similar qualifications available to fill
the Chief of Staff position.

We also found that Livermore had not performed an adequate price analysis of the Chief of Staff
subcontract's rates. According to our calculations, the subcontractor's Fiscal Year (FY) 2011
fixed hourly rate of $310 per hour was 51 percent higher than the average base hourly rate with
fringe benefits of similar Livermore Chiefs of Staff. The statement of work referred to project
assistance services of a Chief of Staff; however, Livermore compared the subcontractor's rate to
program directors, subject matter experts and consultants rather than other Chiefs of Staff who
were Livermore employees. We noted that the price comparison was questionable because the
job descriptions used in the comparison exceeded the requirements identified in the subcontract
statement of work. For example, the subcontract statement of work described duties for project
level management whereas the consultant and program director's work descriptions focused on
broader program oversight. By using the consultant and program director descriptions, the
hourly rates were higher than a project manager. Further, Livermore stated in its original sole


1
"Sole source" refers to a subcontract for the purchase of services that is entered into after soliciting and negotiating
with only one source.

                                                           2
source justification that there were no other sources available for comparison because the
subcontractor had a unique capability and was a subject matter expert in his field. However,
there was no documentation to support that this individual was a recognized expert in the
industry. In our view, due to the lack of competition and a sufficient price analysis, Livermore
may have paid rates that were not in the best interest of NNSA. In fact, we determined that if
Livermore had hired the Chief of Staff as an employee at a rate similar to the highest rate of
another Livermore Chief of Staff, it could have saved about $533,423.

Livermore did not agree with our comparison of subcontractor labor rates with Livermore
employee rates for the potential savings because the decision to hire an employee or subcontract
the work is an institutional decision often made by the program prior to procurement's
preparation of the sole source justification or the market price analysis. We agree it is not
exclusively procurement's responsibility to hire or subcontract work and it may not have access
to human resource information. However, in our view, procurement should have access to all
applicable information so it can provide the best analysis for management decisions to ensure
that goods and services are obtained at fair and reasonable prices.

In another sole source subcontract, we found that Livermore did not perform an adequate price
analysis. Specifically, Livermore did not adequately justify the labor rates for a construction
subcontract because Livermore performed an inadequate price analysis. When Livermore
initially analyzed the subcontract's non-trade labor rates, it did not acknowledge that some of the
proposed rates were 17 to 75 percent higher than comparable subcontract rates. The lack of price
reasonableness was eventually identified by management at Livermore's National Ignition
Facility, who expressed concerns to Livermore procurement that the subcontract labor rates were
not comparable to other construction subcontractors' rates. A subsequent analysis of craft labor
rates by a Livermore cost/price analyst showed that the rates were 25 to 34 percent higher than
comparable FY 2011 rates. When the Livermore contract administrator challenged the
subcontractor's rates based on the updated analysis, the subcontractor agreed to decrease the
labor rates by about 14 percent. While it is commendable that Livermore eventually took action
to reduce the labor rates to a reasonable amount, we estimated that, had Livermore performed a
more thorough price analysis and reached an agreement for the lower rates at the beginning of
the most recent subcontract, it could have saved about $390,739.

Livermore asserted that the original price analysis for the subcontract was appropriate and
supported that the rates paid to the subcontractor were fair and reasonable. We consider this
assertion to be inconsistent with the concerns subsequently raised by program officials and the
fact that a subsequent analysis actually led to a significant decrease in the labor rates charged by
the subcontractor.

Finally, we noted that neither Livermore's Performance Evaluation Plan nor its Contractor
Assurance System contained performance measures that required Livermore to improve its rate
of competitively awarded time and materials subcontracts. In discussions with the NNSA
officials, we determined that implementing such measures could help Livermore achieve a better
value for services obtained on behalf of NNSA.




                                                  3
This report is one in a series of reports that the Office of Inspector General has issued
highlighting concerns with subcontracting by the Department's management and operating
contractors. Most recently, our report Concerns with Consulting Contract Administration at
Various Department Sites (DOE/IG-0889, June, 2013), identified serious concerns with the
administration and management of agreements with a consulting contractor for advice and
consultation provided to senior managers at four Department contractor-operated sites, not
including Livermore. In fact, our testing revealed that the four facility contractors paid
approximately $450,000 to the consulting contractor even though they did not receive evidence
that work performed under the agreements had been completed.

RECOMMENDATIONS

The use of time and materials subcontracts helps Livermore fulfill its mission. To improve
Livermore's procurement of services through this type of contracting instrument and ensure that
the subcontracts are in NNSA's best interest, we recommend that the Manager, Livermore Field
Office, direct the Field Office Contracting Officers to:

    1. Ensure Livermore prepares adequate justifications for sole source subcontracts,
       including documentation of market research as appropriate, and that Livermore supports
       subcontract rates with adequate price analyses; and

    2. Consider establishing a performance measure that requires Livermore to reduce the rate
       of non-competitive awards for time and materials subcontracts.

MANAGEMENT REACTION

Management concurred with the report's recommendations and indicated that corrective
actions would be initiated. Management's proposed corrective actions are responsive to
our recommendations. We appreciate management's recognition that additional action is
needed to mitigate potential risks and that corrective actions are underway. Management's
comments are included in Attachment 2.

Attachment

cc: Deputy Secretary
    Acting Administrator, National Nuclear Security Administration
    Chief of Staff




                                               4
                                                                                   Attachment 1


                      OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this audit was to determine if Lawrence Livermore National Laboratory
(Livermore) procured services through time and materials subcontracts in the most effective and
efficient manner.

SCOPE

This review was performed between July 2012 and July 2013, at Livermore and the Livermore
Field Office, located in Livermore, California.

METHODOLOGY

Our methodology aimed to identify subcontracts and associated subcontract modifications that
were likely to represent time and materials subcontracts awarded to companies likely to perform
services similar to what employees could provide at Livermore. To accomplish the audit
objective, we:

    •   Identified a population of subcontract modifications dated between Fiscal Years 2008
        through 2012, with a dollar amount between $250,000 and $750,000, and with two or
        more subcontract modifications. This resulted in 24 subcontracts, from which we
        judgmentally selected 12 for detailed testing and analysis. Because our selection was a
        judgmental sample, results and overall conclusions are limited to the items tested and
        cannot be projected to the entire subcontract population subject to audit.

    •   Compared subcontract labor costs to similar Livermore employee costs.

    •   Analyzed documentation contained in the sampled Livermore subcontract files.

    •   Reviewed Livermore procurement policies and procedures including its indirect cost
        distribution model.

    •   Held discussions with Department of Energy (Department) and Livermore officials
        regarding price analyses and sole source justifications.

    •   Interviewed subcontractor personnel regarding prior subcontract procedures and policy.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Accordingly, the audit included
tests of controls and compliance with laws and regulations to the extent necessary to satisfy the
objective. In particular, we assessed the implementation of the GPRA Modernization Act of 2010

                                               5
                                                                        Attachment 1 (continued)

and found that the Department had not established performance measures related to
administration of time and materials subcontracts. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed at the time of
our audit. We conducted an assessment of computer-processed data and determined that it was
sufficiently reliable to satisfy the audit objective.

Management waived an exit conference.




                                                6
    Attachment 2




7
    Attachment 2 (continued)




8
                                                                    IG Report No. OAS-M-13-06

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page

                                       http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
